                       UNITED STATES DEPARTMENT OF EDUCATION 

                                        OFFICE OF INSPECTOR GENERAL 

                                  1999 BRYAN STRBBT, HARWOOD CBNTER, SUITE 2630 

                                             DALLAS, TB~AS 75201-6817 

                                       PHONB: (214) 880-3031 FAX: (214) 880-2492 




Larry Groppel                                    SEP I 6 2004
Interim Superintendent
Dallas Independent School District
3700 Ross Avenue
Dallas, Texas 75204-5491

Dear Mr. Groppel:

This Final Audit Report (ED-OIG/A06-EOOI5) presents the results of our audit of the Dallas
Independent School District's (DISD) administration of the Teaching American History Grant
(grant) for the period October 1, 2002, through September 30,2005. Our objectives were to
determine whether DISD: (1) properly accounted for and used grant funds in accordance with the
Elementary and Secondary Education Act (ESEA) of 1965, as amended; Education Department
General Administrative Regulations (EDGAR); grant terms; and the cost principles in Office of
Management and Budget (OMB) Circular A-87; and (2) obtained prior approval for any changes
made to the grant.

We provided a draft of this report to DISD, In its response to our draft report, DISD did not
agree with our finding and only concurred with three of our four recommendations. We have
summarized DISD's comments after the Recommendations section in this report. A copy of
DISD's response is included as an Attachment to this report.




Title II, Part C, Subpart 4, Section 2351, of the ESEA, as amended, authorizes the Teaching
American History Grant. The program awards competitive three-year grants to local education
agencies (LEAs) to promote the teaching of traditional American history. LEAs must partner
with one or more of the following: institutions of higher education, nonprofit history or
humanities organizations', libraries, or museums to design, implement, and demonstrate effective,
research-based professional development programs. The program enables schools to provide
professional development programs to teachers to offer improved instruction in history and
provide a better education to students.

DISD was awarded the grant, in the amount of $996,893, for the period of October 1, 2002,
through September 30,2005. The grant was awarded to allow DISD to improve the history
program within the district. In its grant application, DISD proposed to partner with the
University of Texas at Dallas (proposed grant share of $60,000), Learners Online, Inc. (proposed
grant share of $265,000), and Teacher Curriculum Institute (proposed grant share of $384,893) to
provide seminars, summer institutes, and interactive experiential learning for 200 American




      Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations
ED-OIG/A06-E0015                                                                        Page 2 of 8

history teachers in grades 5, 8, and 11. The awarded funds were to be used for activities that
helped to meet the goals of the grant, as approved by yearly budgets. DISD has drawn down
$537,375 of the awarded amount during the first two years of the grant.



                                      AUDIT RESULTS

Although DISD properly accounted for and used grant funds in accordance with applicable
Federal laws, regulations, grant terms, and cost principles during the first two years of the grant,
DISD did not obtain the required prior approval for a change in key personnel for the approved
grant. The DISD Executive Director of Social Studies (Director) said he thought he obtained the
appropriate approval orally from the Department of Education’s (Department) grant officials.
However, there was no documentation to substantiate that the Department granted the approval.
Consequently, DISD disbursed $205,000 in grant funds to the new unapproved and, therefore,
ineligible grant partner.

According to Learners Online’s President (President), she was initially contacted by DISD in
February 2002 for a potential partnership with DISD for the Teaching American History Grant.
In May 2002, Learners Online provided a preliminary “module” to DISD and began to develop
the program that would meet the needs of DISD. On May 20, 2002, Learners Online and DISD
signed a Memorandum of Understanding that said, “[i]f this application to the Teaching
American History Grant Program is successful, the Dallas Independent School District will sub-
contract with Learners On-Line [sic] to implement the program described in this application.”

In its approved grant application dated June 1, 2002, DISD presented the three grant partners it
planned to partner with, along with the credentials of the key personnel in each entity.
Additionally, DISD outlined the specific qualifications the partners possessed that made them
best qualified to fulfill their requisite grant objective.

On October 7, 2002, the Department awarded DISD the three-year, competitive grant based on
its application. On October 24, 2002, the President met with the Director at DISD to discuss the
product to be delivered. The Director contacted Learners Online on October 25, 2002, and
according to the President stated that he “had grave concerns that LOL [Learners Online] were
not meeting the requirements of the grant.” In a meeting between the President and the Director
on October 28, 2002, the President stated that the Director informed her that he was looking into
another company to partner on this grant in place of Learners Online. According to the
President, “between October and February there were a series of conversations and emails in
which the overall theme was LOL [Learners Online] was not going to be retained on the grant.”
ED-OIG/A06-E0015                                                                        Page 3 of 8

According to DISD, in a letter dated December 5, 2002, the relationship between DISD and
Learners Online was terminated. The letter included the following explanation:

       [T]he modules were constructed as student enrichment activities, not as
       professional development -- the essential component toward fulfilling the terms of
       the TAH Grant…. The terms of the grant also require each module to be based on
       the Texas Essential Knowledge and Skills.

The President of Learners Online stated she never had a chance to fulfill the grant terms, and that
DISD never evaluated more than the preliminary module initially submitted to DISD in May
2002.

On April 8, 2003, DISD issued a Request for Proposal for the online portion of the grant, initially
Learners Online’s portion of the grant. On May 5, 2003, DISD contracted with ABC-CLIO,
Santa Barbara, California, for the online portion of the grant.

At no time during the five months between DISD terminating its relationship with Learners
Online and contracting with ABC-CLIO did DISD obtain written approval from the Department
for this change in key personnel. The Director said he spoke with Department grant officials
about the problems with Learners Online and he felt that he had obtained an oral approval for the
change. Grant officials stated that they were unaware of DISD’s decisions to change partners
until the Learners Online President contacted them to complain. DISD did not submit the change
in writing to the Department, nor did DISD submit the credentials and qualifications of ABC-
CLIO outlining the specific qualifications that made ABC-CLIO best qualified to fulfill the grant
objective.

Pursuant to 34 C.F.R. Part 80, Subpart C, Section 80.30(a) “[h]owever, unless waived by the
awarding agency, certain types of post-award changes in budgets and projects shall require the
prior written approval of the awarding agency.” Additionally, 34 C.F.R. 80.30(d)(3) states,
“[g]rantees or subgrantees must obtain the prior approval of the awarding agency whenever any
of the following actions is anticipated: (3) Changes in key persons in cases where specified in an
application or a grant award.” In the grant application, DISD listed the three key partners of the
grant, one of which was Learners Online.

According to Department officials, at minimum, DISD should have submitted a narrative in
which it provided justification for dismissing Learners Online and the qualifications of the new
partner. Only with this information would the Department have been in a position to reevaluate
and determine if the new partner had the requisite qualifications and credentials to replace
Learners Online. After obtaining the necessary information, the Department officials stated they
may or may not have approved the change.

The Department awards grants based on a competitive process that includes reviewing and
evaluating not only the grant objectives, but also the partners’ credentials and qualifications and
how they are best qualified to fulfill the grant objectives. Because of limited funding, not all
applicants receive a grant.
ED-OIG/A06-E0015 	                                                                     Page 4 of 8

By submitting the qualifications of one grant partner and then switching to a new grant partner,
without the required notification and approval by the Department, DISD invalidated the
competitive process and potentially prevented a different applicant from receiving this grant
funding. DISD’s only written notice of change in personnel was made after the fact in its Annual
Performance Report submitted to the Department on September 10, 2003, which stated:

       ABC-CLIO was awarded the contract to deliver the on-line and face-to-face
       professional development sessions with DISD teachers after Learners On-Line
       [sic], the potential vendor originally mentioned in the grant, failed to perform
       services.

DISD disbursed $205,000 to an ineligible grant partner, ABC-CLIO ($169,000 in the first year
of the grant and $36,000 in the second year). Even though the grant is in the second year of the
award period, DISD still has not submitted the required documentation to obtain the required
approval.



                                 RECOMMENDATIONS

We recommend that the Deputy Under Secretary of the Office of Innovation and Improvement,
in accordance with the provisions in 34 C.F.R. 80.43(a)—

1. 	 Require DISD to refund to the Department unallowable costs of $205,000 disbursed to the
     ineligible partner.

2. 	 Instruct DISD to submit to the Department the required narrative to obtain approval for a
     change in partner for the Teaching American History grant.

3. 	 Terminate funding to DISD for the unapproved partner until the appropriate approval is
     obtained.

4. 	 Instruct DISD to follow the procedures outlined in 34 C.F.R., Part 80, Subpart C, Sections
     80.30(a) and 80.30(d)(3) and provide the required notification and justification for all
     changes to other current and future grants.


                                    DISD’S RESPONSE

DISD did not concur with our finding and only concurred with three of our four
recommendations. DISD stated in its response, “[t]he District respectfully and strongly disagrees
with the fundamental conclusion reached in the draft.” DISD also stated, “[w]e base our
disagreement on errors of fact and interpretation in the report.”
ED-OIG/A06-E0015                                                                        Page 5 of 8

DISD disputes the fact that it “ . . .failed to obtain written approval from the Department of
Education (“Department”) before changing the vendor from Learners OnLine to the vendor
chosen as a result of the competitive procurement process ABC-C[L]IO.”

DISD also disagrees with the assertions made by Learners Online. DISD stated it communicated
with the President of Learners Online about the issues related to the project, and that it stands by
its decision to replace Learners Online. According to DISD, Learners Online’s President
informed the DISD Executive Director of Social Studies that she would be unable to provide the
on-line portion of the grant until she received advance payment. DISD goes on to state, “. . . the
process used by the District for selecting a replacement vendor complied with the requirements
of state and federal law.”

However, DISD expressed its belief that it obtained a waiver from the Department for the
requirement to obtain prior written approval before switching vendors, and that the Department
stated once a replacement vendor was selected to notify the Department in writing through
DISD’s Annual Performance Report. DISD subsequently noted the awarding of the on-line
services to ABC-CLIO in its Annual Performance Report.

DISD disagrees with our recommendation that it refund $205,000 in grant funds that was
disbursed to the ineligible grant partner. However, DISD agreed to submit a narrative to the
Department regarding the change in partners for the grant, suspend funding to the grant partner
until approval from the Department is obtained, and to follow all procedures for notification and
justification for changes in grant partners for current and future grants.



                                     OIG’S RESPONSE

Nothing in DISD’s response has caused us to change our finding or recommendations. DISD’s
response did not provide any information to contradict that DISD failed to obtain written
approval before changing to a key partner in the Teaching American History grant as required.

DISD’s response expressed its belief that it had obtained a waiver for the requirements set forth
in 34 C.F.R. 80.30(a). However, during our review of the grant, DISD was unable to provide
sufficient detail or evidence to support that the waiver was obtained, nor did it provide support
that the Department was aware of the change to the grant. During the exit conference, DISD
again stated that it obtained oral approval of the change; however, it did not have written
documentation to support the claim. Even if DISD did obtain oral approval for the change, the
regulations require prior written approval and DISD has the responsibility to ensure that it
complies with Federal grant requirements.

We also spoke with officials at the Department and they stated that they were not aware of
DISD’s decision to switch grant partners until the President of Learners Online contacted the
Department to complain. Department officials stated that Federal regulations require prior
written approval for changes to the grant. The officials requested that DISD submit a memo
explaining the reason for the change; however, the memo was never provided.
ED-OIG/A06-E0015 	                                                                      Page 6 of 8

The President of Learners Online stated she did not request full advance payment. She simply
requested the initial installment of the contract prior to continuing to work on the grant products
beyond the sample stage. According to the contract with ABC-CLIO, the “Contractor may be
paid in monthly installments . . .” and the contract authorizes payment for each year of the grant
with a majority of the funding, $169,000, disbursed in the first year.

Lastly, DISD agreed to submit a narrative to the Department justifying replacing Learners
Online, suspend funding to the grant partner until approval from the Department is obtained, and
ensure it meets these requirements for current and future grants. DISD also agreed to suspend
funding to the new grant partner until the Department’s approval has been obtained. However, it
disagreed with returning $205,000 of unallowable costs paid to the ineligible grant partner.
Although DISD felt justified in changing grant partners, it failed to follow Federal regulations
requiring prior written approval. Without providing written approval, the Department has no
assurances that the new partner meets the requirements of the competitive grant process.



                  OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to determine whether DISD: (1) properly accounted for and used
grant funds in accordance with the ESEA of 1965, as amended; EDGAR; grant terms; and the
cost principles in OMB Circular A-87; and (2) obtained prior approval for any changes made to
the grant.

To accomplish our objectives, we—

   •	  Reviewed applicable Federal laws and regulations;
   •	  Reviewed the State of Texas’ Audit Report for the year ended June 30, 2003;
   •	  Reviewed DISD’s Teaching American History Grant Application and Budget Narratives;
   •	  Reviewed the Teaching American History Grant Performance Report for the 2002/2003
       year;
   • 	 Reviewed the expenditure reports for October 1, 2002, through April 20, 2004, for the
       Teaching American History grant;
   • 	 Reviewed DISD’s accounting transactions, invoices, and other documentation
       supporting: (1) all expenditures charged to and (2) all services and products delivered by
       the grant from October 1, 2002, through April 20, 2004; and
   • 	 Interviewed Department officials, Learners Online officials, and the Executive Director
       of Social Studies at DISD.

We did not receive any computerized data for the review of the grant; therefore, we did not
perform any data reliability tests. To achieve our audit objectives, we relied on written
documentation from DISD and its grant partners to support grant expenditures and deliverables.

Our review covered October 1, 2002, through September 30, 2003, which is the first completed
year of the three-year grant period. We expanded our audit period to include costs associated
with the grant through the time of our audit fieldwork. We conducted our fieldwork at DISD’s
ED-OIG/A06-E0015                                                                      Page 7 of 8

Administration Building, Dallas, Texas from March 22, 2004, through March 26, 2004. We
discussed the preliminary results of our audit with DISD officials on March 26, 2004. An exit
conference was held with DISD officials on May 27, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.



                 STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we reviewed all costs charged to the grant, performance data relating to
grant deliverables, and documentation related to the change in personnel for the three-year grant
period. Therefore, it was not considered necessary to assess DISD’s management controls over
the grant. Our review disclosed non-compliance with Federal regulations relating to the grant.
This non-compliance is discussed in the AUDIT RESULTS section of this report.


                               ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

This report incorporates the comments you provided in response to the draft report. If you have
any additional comments or information that you believe may have a bearing on the resolution of
this audit, you should send them directly to the following Education Department officials, who
will consider them before taking final Departmental action on this audit:

               Jack Martin

               Chief Financial Officer 

               Office of the Chief Financial Officer 

               U.S. Department of Education           

               400 Maryland Avenue, S.W., Room 4E313 

               Washington, DC 20202 


               Nina Rees 

               Deputy Under Secretary 

               Office of Innovation and Improvement 

               U.S. Department of Education 

               400 Maryland Avenue, SW, Room 4W317 

               Washington, DC 20202 

ED-OIG/A06-E0015                                                                      Page 8 of 8

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                                    Sincerely,


                                                    /s/
                                                    Sherri L. Demmel
                                                    Regional Inspector General
                                                      for Audit


Attachment
                           Dallas Independent School District 


August26,2004


Ms. Sherrie L. Demmel
Regional Inspector General for Audit
U.S. Department of Education
Office of the Inspector General
1999 Bryan Street, Suite 2630
Dallas, Texas 75201-6817

RE: Control Number ED-OIG/A06-E0015

Dear Ms. Demmel:

The Dallas Independent School District (the "District") submits this response to the draft audit
report concerning administration of the Teaching American History Grant (Grant) for the period
October 1, 2002, through September 30, 2005. We have thoroughly reviewed the allegations
contained in the draft report. The District respectfully and strongly disagrees with the fundamental
conclusion reached in the draft.

We base our disagreement on errors of fact and interpretation in the report. We do, of course,
disagree with the assertions from the owner of Learners Online, Inc., the vendor whose
replacement is the focus of this draft audit report. The District has communicated many times,
including several meetings with the President of Learners Online, regarding her complaints and
the District stands by its decision to replace that vendor. The draft report does not question the
factual basis for the District's decision to replace that vendor. Moreover, the process used by the
District for selecting a replacement vendor complied with the requirements of state and federal
law.

The draft concludes that the District failed to obtain written approval from the Department of
Education ("Departmenf') before changing the vendor from Learners Online to the vendor
chosen as a result of the competitive procurement process ABC-CIO. The draft report cites 34
C.F.R. Part 80, Subpart C, Section 80.30(a): "However, unless waived by the awarding
agency, certain types of post-award changes in budgets and projects shall require the prior
written approval of the awarding agency" (emphasis added). We respectfully submit that the facts
described below clearly establish that the Department was informed prior to the change in
vendor, that the Department waived the requirement of prior written approval and that the District
complied with the requirement of written approval as requested by the Department.

On October 1, 2002, the District was awarded the Teaching American History Grant by the Office
of Innovation and Improvement. The Grant provided the District funds to implement a three-year
professional development program for American History teachers, providing approximately 100
teachers each year access to rich content, sound pedagogical practices, and on-line resources
for the teaching of a standards-based curriculum.

In October 2002, the President of Learners Online, the vendor identified as the provider of on­
line professional development services, informed                  the Grant's Project Director, of
her inability to provide on-line products without advance payment (see attached email). The
president admitted her mistake of trying "to piecemeal a representative module on the cheap" and




                              Mike Moses, Ed.D. • General Superinte.ndent 

                  3700 Ross Avenue. Dallas. Texas 75204-5491 • Telephone (972) 925-3700 

her need of "the initial funding installment to initiate full-blown development and production of the
[professional development] modules."

The District only procures products that are complete and aligned to state curriculum standards.
As of November 1, 2002, Learners Online had presented the                   with one incomplete
module. On November 11, 2002, E                   contacted                  at the Department
concerning the replacement of Learners Online in the Grant.                informed.F• • • •
that as long as the goals and funding remained constant, the Department only requires
notification of the replacement vendor.

During the week of December 16, 2002,.                c a l l e d _ t o inquire about Learners
Online. _             indicated he had received multiple communications from the president of
Learners Online. The president requested the Department to intervene on her behalf and assure
her that her company would receive the monies dedicated to the on-line services of the Grant. _
•••St asked                    to comment on the state of relations between the District and
Learners Online. •               informed him that Learners Online had not completed one of the
modules and that the president had written in an e-mail that in order to complete the modules,
funds would have to be advanced. 7                informed               that the Department was
obligated to respond in writing to the president of Learners Online that the local education
agencies (that is, the District) are responsible for identifying appropriate vendors and that the
Department does not involve itself in awardee-vendor issues.

_informed                      I that the District was beginning the process of securing a vendor
that had a complete product aligned to the standards for American History. _                stated
that once a vendor was selected to let the Department know in writing through the Annual
Performance Report due in September 2003. The awarding of the on-line services to ABC-CLIO
was noted in the Annual Performance Report (see attachment).

The week of April 7, 2003, a Request for Proposals was released to procure the on-line services
proposed in the Grant. Three companies submitted proposals. Only one had a finished product
that met the terms of the grant and came in under the dollar amount dedicated for the on-line
project.

On April 29, 2003, a selection committee representing the District's Curriculum and Instruction
Department and the Minority and Women-Owned Business Division recommended the selection
of ABC-CLIO. An on-line professional development company, ABC-CLIO provides teachers sixty­
eight lessons aligned to the Texas state standards for teaching American History. ABC-CLIO has
also partnered with the Region I Education Service Center (a 2003 grant recipient based in
Edinburg, Texas) to provide content training to American History teachers.

On May 29, 2003, the District's Board of Trustees approved the ABC-CLIO contract, and during
the week of June 9, 2003, AB,c-CLIO began providing professional development and on-line
services to the District as part of the grant.

 On September 10, 2003, the Department was notified through the District's Annual Performance
 Report that ABC-CLIO was providing the on-line services, replacing Learners Online (see
 attachment). No follow-up correspondence or requests for additional documentation were made
 by the Department until the Draft Audit report was presented to the District on July 15, 2004.

 To date, students whose teachers participated in the Teaching American history sessions have
 passed our state assessments of American History at a higher rate than students whose teachers
 have not yet experienced the training. We appreciate the opportunity to serve teachers with in­
 depth content seminars, on-line standards based lessons, and pedagogical support knowing that
 the grant funds are translating into increased student performance.




                                                   2
                                                                                  Attachment


Based on the foregoing, the District strongly disputes the characterization of the payments of
$205,000 to ABC-CLIO as unallowable costs. Moreover, the District strongly disagrees with the
recommendation that it be required to refund that amount to the Department. The District does
agree to submit to the Department forthwith a narrative regarding the change in partner for the
Grant. The District also agrees to withhold further payment of grant funds to ABC-CLIO pending
approval of the Department. The District also agrees to follow all procedures regarding
notification and justification for changes to other current and future grants.

If you have any further questions, please contact Mr. Douglas W. Ochandarena, Division
Manager, Grants Acquisition and Management.

Sincerely,



Mike Moses

Enclosures

Cc: 	   Larry Groppel
        Lorenzo Garcia
        Jack Elrod
        Douglas Ochandarena




                               I:




                                                3

                                                                                       Page 1 of2
                                                                                     Attachment
                    Re: Oct 28 Meeting note.


From:
To:
Date:    10/30/20025:17 PM
Subject: Re: Oct 28 Meeting note


Larry;

I do now and always did understand that the modules were to be directed
toward staff development and that they were to be written based on the TEKS.
It was my mistake to try to piecemeal a representative module to you on the
cheap, with zero funding. What you saw previously was only half of what we
intend a complete module to be. I am excited about delivering a more complete
module to you on or before November 8th •

The web-based professional development modules we deliver to your teachers
fully responds to the grant requirements and will provide you with so much more.
Have Faith. You agreed to partner with us and we will do nothing less than make
you shine as Director of this project. Along with the other top notch partners you
have selected, we too have a stake in making this program a huge success.

We are chomping at the bit to kick off this program, but need the initial
funding installment to initiate the full-blown development and production of
the modules. I trust once you have approved the sample module· you receive on
the 8th of November you will immediately forward our initial installment. If
this is incorrect please contact me as soon as possible.

Thanks for your help. I'm looking forward to exceeding your expectations.

Sincerely,




At 05:29 PM 10/29/2002 -0600, you wrote:



     -   O ur discussion yesterday concerning the Learners Online modules for the
         Teaching American History Grant was productive. The fact that you
         recognize that the modules need to be redirected toward staff
         development instead of enrichment curriculum for students is essential
         toward fulfilling the terms of the grant. The terms of the grant also
         require each module to be based on the Texas Essential Knowledge and


file:IIC:     cuments'ro20 nd%20 ettings Administr t r L c 1%20 ettings emp GW}OOOc... 1114/2002
                                                                                 Page 2 of2

                                                                               Attachment
      Skills.                                                                                  .~.   .

      I look forward to receive the promised redesigned modules on or before
      Friday, November 8th. I will contact you Monday, November 11th to
      discuss the redesigned modules.               .

      Sincerely,




file:IIC:   cuments%20 nd%20 ettings Administr t r L c 1%20 ettings emp GW}OOOc... 1114/2002
.'

                                                                                                                   OMB No. 1890-0004
                                                                                                                  Exp. Date: 10/31/2003

                                                 u.s. Department of Education                                                     Attachment
                                                  Grant Performance Report
                                                         Cover Sheet


      See Block 5 on the Grant Award
      Notification.
                                             I
                                             1.) PRlAward No
                                              S215X020386
                                             ~----------------------------------------------~

                                             2.) Project Title
      Enter the same title as on the
      approved application.
                                             IHistory as Inquiry


                                             3.) Recipient Information
      Repeat from Block 1 on Grant            Name: Dallas Independent School District
      Award Notification. If address
      has changed, provide the current        Address 3700 Ross Avenue, Box 103
      address.
                                              City: Dallas                                State: TX             Zip+4: 75204-5491


                                             4 Contact Person
      Provide the name of the project         Name: 

      director or the contact person          Title: 

      who is most familiar with the           Telephone Number: 

      content of the performance
                                              FaxNumber'•.• • • •                           

      report.
                                              E-mail Address: 


                                             5.) Performance Reporting Period
      Include the interval for the
      information requested in the
      performance reporting period.           10/0112002 - 09/30/2003 (mmldd/yy)
      See instructions on page 2 for
      details.

                                             6.) Cumulative Expenditures
      Report actual budget                                                     Federal $                               Non-Federal $
      expenditures for the above              Current Budget Period                $624,093                                               0
      performance reporting period.           Previpus Budget Period                      0                                               0
      See instructions on page 2 for
                                              Negotiated Indirect Cost Rate: 1.4%
      details.
                                              Exp. Date: 09/30/2005

                                             7.) Annual Certification of Institutional Review Board_(IRBl Approval
      If applicable, see instructions on .
      page 2 for details on annual IRB                 Yes                                 No - ­                          NAX
      approval (Please circle one).               ,           --                                . I
                                                                                                      •
      Authorized Representative:

     . To the best of                                 all data in this ",p,·1"n1'1Tl,,·n... p             are true and correct.
       Name (typed                                                          Title: ••_ _ _ _. . . . . .
       or printed):
       Signature:
                                                                            Date: September 10, Z003

      ED Form 524-B
                                                                                                        Attachment

                         INSTRUCTIONS FOR GRANT PERFORMANCE REPORT

PURPOSE

Recipients of multi-year discretionary grants must submit an annual performance report for each year funding has
been approved in order to receive a continuation award. The perfonnance report should demonstrate that substantial
progress has been made toward meeting the project objectives and the program performance indicators. The
information described in these instructions will provide the Department of Education (ED) with the information
needed to determine whether recipients have done so. Additional infornlation may be found in Sections 74.51,
75.118, 75.253, and 75.590 and 80.40 of the Education Department General Administrative Regulations (EDGAR).

                                          GENERAL INSTRUCTIONS

    • 	 An optional form for reporting Part I has been provided for your convenience. However the requested
        information may be provided in any reasonable format. You may reference sections and page numbers of
        the application rather than repeat the information.

    •	   Submit an original and one copy of the grant performance report. ED program offices will notify grant
         recipients of the due date for submission of the performance report.

    • 	 For those programs that operate under statutes or regulations that require additional or different reporting
        for performance or monitoring purposes, ED program offices will inform you when this additional or
        different reporting should be made.

These instructions do not apply to the final performance report submitt~d after the project is completed.



                             I. SPECIAL INSTRUCTIONS FOR COVER SHEET

Complete the. cover page with the appropriate information. Included is additional guidance for items 5, 6 and 7.

    5. 	 Performance Reporting Period

         Projects that are operating in their first budget period:
             • 	 Perfonnance reporting period is from the start of the project through 30 days before the due date
                   of the report.

         Projects that are operating in interim budget periods:
             • 	 Performance reporting p~riod is from the end of the previous reporting period through 30
                   days before the due date of this report.

    6. 	 Cumulative Expenditures

         Report your actual cumulative budget expenditures for the performance reporting period. If applicable
         include cumulative expenditures from current and previous budget periods.

         Report the current Federal negotiated indirect cost rate and expiration date.

    7. 	 Annual Institutional Review Board (IRB) Certification

         Annual certification is required if Attachment HS1, Continuing IRB Reviews, was attached to the Grant
         Award Notification. Attach the IRB certification to the performance report as instructed in Attachment
         HSI.



                                                                                                    September 15, 2003
                                                                                                         Attachment


n.   EXECUTIVE SUMMARY

Provide a one to two page Executive Summary of the grant performance report.


m.    PROJECT STATUS

Report your progress in meeting each one of your project objectives.

Provide examples of actual accomplishments for each project objective. Accomplishments and outcomes should be
quantified wherever possible.

Report your project performance on established program performance indicators/measures.

Explain why planned objectives were not attained or why scheduled activities were not implemented.

Describe the corrective action (s) that will be taken to address the problem (s).


IV. BUDGET INFORMATION

Report your actual budget expenditures for the performance reporting period in #5 on the Cover Sheet.

Provide an explanation if you are not expending funds at the expected rate.

Describe any significant changes to your budget resulting from modific!ltion of project activities.

Describe any anticipated changes in your operational budget for the next budget period.


V. SUPPLEMENTAL INFORMATION

Describe any changes that you wish to make in the grant performance objectives and activities.

Provide any other appropriate information about the status of your project including any unanticipated outcomes or
benefits from your project.




Paperwork Burden Statement
According to the Paperwork Reduction Act of 1995, no persons are required to respond to a collection of
information unless such collection displays a valid OMB control number. The valid OMB control number for this
information collection is 1890 -0004. The time required to complete this information collection is estimated to
average 20 hours per response, including the time to review instructions, search existing data resources, gather the
data needed, and complete and review the information collection. If you have any comments concerning the
accuracy of the time estimate (s) or suggestions for improving this form, please write to: U. S. Department of
Education, Washington, D.C. 2020-4651. ,If you have comments or concerns regarding the status of your individual
submission of this form, write directly to (insert program office), U.S. Department of Education, 400 Maryland
Avenue, S.W., Washington, D.C. 20202.




                                                                                                      September 15, 2003
                                                                                             Attachment


        Teaching American History Grant: Annual Performance Report 

                    Dallas Independent School District 



Goals 1 and 2: Improve teachers' knowledge of U.S. History content.

  Accomplishments           Performance Indicators            Adjustments                     Budget
                                                                                      $ Allocated      $ Spent
Completion of three 5­     Attendance:                  Additional training and           $44,000       $22,987
day American History             40 teachers            sessions not included in
Seminars taught by the                                  2002-2003 will be offered
history faculty at the     Sessions aligned to state    in 2003-2004.
University of Texas at     standards:
Dallas.                              100%
                           Completion of standards-
                           based lessons:
                                      80%
Delivery of on-line,       Number of sessions:          ABC-CLIO was awarded            $169,000       ,$169,000
standards-based                        10               the contract to deliver the
American History                                        on-line and face-to-face
lessons and training on    Teacher attendance:          professional development
classroom                             200               sessions with DISD
implementation of these                                 teachers after Learners
lessons.                                                On-Line,' the potential
                           Number of lessons on­
                                                        vendor originally
                           line:
                                                        mentioned in the grant,
                                      103               failed to perform services.
                           % of lessons aligned to
                           state standards:
                                      66%

Comments:

    •    The topics of the American History seminars conducted by the University of Texas at Dallas,
         including the primary source documents, lectures, video segments, and readings, were 100%
         aligned with the state-assessed objectives in American History, grades 8 and 11.

    •    The 68 lessons by ABC-CLIO that were aligned to the Texas curriculum objectives for the
         teaching American History served as the basis of professional development training, with each
         lesson linked to the appropriate student expectation in the district's scope and sequence.

    •    A surplus was created in the stipend monies originally allocated for teacher attendance at the
         UTD seminars, because contract time was used to pay teachers for summer staff development.
         The surplus stipend funds will'be used to offer additional 5-day seminars in Summer 2004.




                                                                                         September 15, 2003
                                                                                             Attachment


Goal 3: Improve teachers' skills in pedagogy by training a cohort of History Alive coaches, grades
5,8, and 11.

  Accomplishments           Performance Indicators              Adjustments                      Budget
                                                                                        $ Allocated    $ Spent
Identification of 2         % candidates teaching        Training sessions planned
History Alive Cohorts:      classes with at-risk         for 2002-2003 but not
Elementary (grade 5)        students> 50%:               conducted because of
and Secondary (Grades                                    logistical issues (Le. the
8&11)                                   83%              training of a second
                                                         coaching cohort) will be
                            % of candidates teaching     offered completed in
                            at underperforming           2003-2004.
                            schools (identified in
                            2002):

                                        53%
                            % of candidates with
                            certification in history:

                                       100%
Training of History Alive   Attendance:                  Professional Development         $411,093       $315,300
coaches cohorts, Level I    Elementary: 15               sessions are being       ,
                            Secondary: 21                evaluated through the
                                                         Concernl~-Based Adoption
                            Stages of Concern            Model. The Stage-of-
                            Survey:                      Concern survey data will
                                                         determine the focus of
                            Awareness:           7       Octoper 2003 training in
                            Personal:           15       order to move teachers
                            Management:          1       toward routine
                            Consequence:        13       implementation of the
                                                         program during 2003­
                                                         2004.


Comments:

    •   The goal of selecting teacher responsible for the education of high-risk populations and who
        teach at a low-performing schobl to participate in the History Alive coaching cohort was met.
        High-risk students are defined as those who qualify for free-or-reduced lunch programs and/or
        students who are identified for special education services or as limited English proficient learners.

    •   After Level I History Alive training, most members of the cohort have concerns related to their
        ability to implement the program with fidelity. This concern will guide the planning and delivery of
        Level II training in October 2003 and classroom visitations in December 2003 and February 2004.

    •   A surplus was created in the stipend monies originally allocated for teacher attendance at the
        Level I History Alive sessions, because contract time was used to pay teachers for summer staff
        development. The surplus stipend funds will be used to offer additional Level I trainings in
        Summer 2004.




                                                                                            September 15, 2003
                                                                                             Attachment


Goal 4: Improve student understandings of United States history as measured by the Texas state
assessment of American history (TAKS), grades 8 and 11.

                    % passing                          Gap                                             Gap
                                    % passing                      % passing       % passing
                   TAAS/EOC,                        between                                         between
Grade Level                        TAAS/EOC,                      TAKS, 2003      TAKS, 2003
                        2002                        state and                                       state and
                                   2002 (state)                    (District)       (state)
                    . (district)                     district                                        district
       8               76.7%          83.7%          -- 6.0%         88.7%           93.1%           -- 4.1%
       11              69.3%          73.9%          --4.6%          87.7%           90.2%           -- 2.5%


                             % district campuses at or above      % district campuses at or above
             Grade Level
                                state passing rate, 2002             state bassing rate, 2003
                  8                     8/28 29%                             9/28 32%
                  11                    8/23 34%                             10/23 43%




Comments:

   •        American history students in the Dallas Independent School District made achievement gains in
            2002-2003 compared to data from a year earlier. In Spring 2003 the state of Texas piloted the
            new state assessment (TAKS) for American history at grades 8 and 11. The results above
            indicate that both grade 8 and 11 student in Dallas closed the achievement gap with the state ­ a
            remarkable feat considering that the DISD is the second largest urban school district in Texas
            and that the district has the highest percent of Limited English Proficient learners in the state.

   •        State achievement data (TAKS) for 2003-2004 will be used to determine the effect of the History
            Alive program upon the students of teachers participating in the cohort.




                                                                                               September 15, 2003
